No. _____________
In The Supreme Court of the United States

Keith Henderson, Petitioner
vs.
State of Minnesota, Respondent.

On Petition For Writ of Certiorari To The Eighth Circuit Court of Appeals

PETITION FOR WRIT OF CERTIORARI

Zachary A. Longsdorf, I.D. No.: 390021

Counsel of Record

5854 Blackshire Path, Suite 3
Inver Grove Heights, MN 55076
Telephone: (651) 788-0876
Facsimile: (651) 223-5790
zach@longsdorflaw.com

1

QUESTIONS PRESENTED
1. In deciding whether to issue a certificate of appealability under 28 U.S.C. §
2253, may a federal court find that “reasonable jurists would not disagree”
about the denial of relief on procedural grounds where other courts have
resolved the same issue, on similar facts, in a manner favorable to habeas
petitioner’s position?

2

TABLE OF CONTENTS
OPINIONS BELOW ........................................................................................................... 4
JURISDICTIONAL STATEMENT ......................................................................................... 4
CONSTITUTIONAL PROVISIONS AND STATUTES INVOLVED IN THE CASE........................... 4
STATEMENT OF THE CASE............................................................................................... 5
REASONS FOR GRANTING THIS PETITION ...................................................................... 29
CONCLUSION ................................................................................................................ 34
TABLE OF AUTHORITIES
CASES

Butler v. McKellar, 494 U.S. 407 (1990) .................................................................... 34
Easterwood v. Champion, 213 F.3d 1321 (10th Cir. 2000) .................................. 32, 33
Miller-El v. Cockrell, 537 U.S. 322 (2003) ................................................................. 30
Moore v. Knight, 368 F.3d 936 (7th Cir. 2004) .......................................................... 31
Sawyer v. Smith, 427 U.S. 227 (1990) ....................................................................... 34
Slack v. McDaniel, 529 U.S. 473 (2000) ..................................................................... 30
Starns v. Andrews, 524 F.3d 612 (5th. Cir., 2008) .................................................... 30
Teague v. Lane, 489 U.S. 288 (1989) ......................................................................... 34
Wilson v. Beard, 426 F.3d 653 (3rd Cir. 2005) .......................................................... 32
Wims v. U.S., 225 F.3d 186 (2nd Cir. 2000) ............................................................... 33
CONSTITUTIONAL PROVISIONS
U.S. Const. amend. V ................................................................................................... 4
U.S. Const. amend. XIV ............................................................................................... 4

INDEX TO APPENDIX
Appendix A: Eighth Circuit Court of Appeals Judgment Denying Application for
Certificate of Appealability
Appendix B: Order of the District Court Adopting Report and Recommendation
Appendix C: Report and Recommendation of the Magistrate Judge

3

Appendix D: Decision of the Minnesota Supreme Court
Appendix E: Text of 28 U.S.C. § 2254
OPINIONS BELOW
The Eighth Circuit Judgment in Henderson v. Miles, No. 19-3165 denying the
request for a certificate of appealability (Appendix A) is unreported. The Order of the
United States District Court, Henderson v. Miles, 18-2828(MJD/BRT) (D.Minn.
8/29/19), appears at Appendix B. The Report and Recommendation of Magistrate
Judge Thorson appears at Appendix C.

Mr. Henderson had an appeal to the

Minnesota Supreme Court, Henderson v. State, 906 N.W.2d 501 (Minn. 2018). This
opinion appears at Appendix D.
JURISDICTIONAL STATEMENT
The judgment sought to be reviewed was entered on February 18, 2020.
(Appendix A). Pursuant to an Order issued on March 19, 2020, the deadline for filing
a petition for a writ of certiorari was extended to 150 days. Petitioner invokes this
Court’s jurisdiction on the basis of 28 U.S.C. § 1254(1).
CONSTITUTIONAL PROVISIONS AND STATUTES INVOLVED IN THE CASE
The questions presented implicate the following provisions of the United
States Constitution:
AMEND. XIV, No state shall … deprive any person of life, liberty, or property without
due process of law.
AMEND. V, No person shall be … deprived of life, liberty, or property without the
due process of law.
4

The questions further implicate the following statutory provisions:
28 U.S.C. § 2253(c), which states:
(1) Unless a circuit justice or judge issues a certificate of appealability,
an appeal may not be taken to the court of appeals from— (A) the final
order in a habeas corpus proceeding in which the detention complained
of arises out of process issued by a State court; or
(B) the final order in a proceeding under section 2255.
(2) A certificate of appealability may issue under paragraph (1) only if
the applicant has made a substantial showing of the denial of a
constitutional right.
(3) The certificate of appealability under paragraph (1) shall indicate
which specific issue or issues satisfy the showing required by paragraph
(2).
28 U.S.C. § 2254, which is reproduced verbatim in the appendix to this section.
(Appendix E).
STATEMENT OF THE CASE
Petitioner Keith Henderson seeks a writ of certiorari to the Eighth Circuit
from the denial of a certificate of appealability in federal habeas corpus review.
Federal court jurisdiction derives from 28 U.S.C. § 2254. The Minnesota Supreme
Court denied Mr. Henderson’s petition for postconviction relief. See Appendix D.
Mr. Henderson’s habeas petition was denied by the United States District
Court for the District of Minnesota. Appendix B. The District Court’s Order adopted
5

the Magistrate Judge’s Report and Recommendation (Appendix C) and denied a
Certificate of Appealability under 28 U.S.C. § 2253 as to all claims. Mr. Henderson’s
timely filed Application for Certificate of Appealability was denied by the Eighth
Circuit Court of Appeals on February 18, 2020. (Appendix A).
Mr. Henderson was charged with first-degree murder and crime committed
for the benefit of a gang related to a shooting which took place in Minneapolis on
August 7, 1998. He was tried in the State of Minnesota, County of Hennepin,
Fourth Judicial District, with the Honorable Thorwald H. Anderson presiding.
After a jury trial, on March 25, 1999, Mr. Henderson was convicted of both counts.
On April 22, 1999, Mr. Henderson was sentenced to life in prison on the first-degree
murder and five (5) years to run consecutive on the crime committed for the benefit
of a gang conviction.
Around 11:00 a.m. on August 7, 1998, Juwan Gatlin, known as Wheaty, was
shot in an alley near Logan Avenue North in North Minneapolis. (T. 1945). Gatlin
was shot between thirteen and fifteen times. (T. 1977). Eleven shell casing were
found near his body. (T. 1956). Forensic testing purportedly showed that all eleven
shell casings were fired from the same .40 Smith & Wesson handgun. (T. 2109).
The gun that fired the shots was not found. (T. 1957).
Juwan Gatlin was a member of a street gang known as the Mickey Cobras.
(T. 1981, 1993). Gatlin was murdered because he provided information to the police
about the murder of Tony Dawson, a previously unsolved homicide in Minneapolis.
(T. 1993, 2223, 3194). As a result of information provided by Gatlin, Arthur Hurd

6

and Mitchell Douglas were arrested, indicted, and convicted of murdering Tony
Dawson. (T. 2001). In exchange for the information he offered, Gatlin received a
probationary sentence from the Hennepin County Attorney’s Office on a robbery
charge that would have otherwise carried with it a prison sentence. (T. 1995-96).
While Hurd was in the Carver County Jail on the murder charge, he mailed a
copy of Gatlin’s transcribed question and answer statement to Andrew Neal.
Attached to the statement was a letter stating that “something needs to get taken
care of.” (T. 2496-97). When Neal received the statement, he delivered it to Donald
Carter, also known as Rock. (T. 2493-95, 3028). Donald Carter was the “Don of
Dons” of the Mickey Cobras gang and had the authority to order “hits.” (T. 2199,
2232, 3195). According to Herbert Williams, Rock had to authorize a hit, but
snitching like Gatlin did would be cause for a hit. (T. 2232-34).
THE STATE’S CASE
Sergeants Mark Lenzen and Michael Carlson were the chief investigators on
the case. (T. 1992). Those same two (2) men were also the investigators on the
murder of Tony Dawson and Steven Stinson. (T. 1993, 2033-34, 3055). In early
June 1997, they received a call from Gatlin. (T. 1993). Carlson met with Gatlin at
the jail on June 9th or 10th. (1997). Gatlin was in the jail on charges of robbery and
wanted Carlson to take care of his robbery charges in exchange for information
about the Dawson murder. (T. 1997). Though Carlson said he did not have the
authority to make such a deal, Gatlin provided a detailed statement that was
consistent with what the police investigation disclosed. (T. 1997). Gatlin contacted

7

police about the Dawson murder because he was in jail for a robbery committed by
Mitchell Douglas and Douglas had not stepped up to take responsibility for the
robbery. (T. 1993-94, 2001). During his initial statement, Gatlin tried to only
implicate Mitchell, but not Hurd because Hurd was a Mickey Cobra. (T. 2003-04).
Later the county attorney’s office worked out a deal with Gatlin for his testimony.
(T. 1996). Gatlin told Carlson that he was afraid to testify against Hurd because he
was a fellow gang member. (T. 2004).
Over Mr. Henderson’s objection, Carlson was allowed to testify about the
history of the Mickey Cobra’s gang. (T. 2009-20). The prosecuting attorney showed
Carlson photographs of purported gang members and had Carlson identify them as
gang members, including their purported nicknames. (T. 2022-33). The people
identified in the photographs included Mr. Henderson, Gatlin, and many of the
witnesses in the case.
On August 18, 1998, Mr. Henderson was arrested for the murder of Gatlin.
During a tape-recorded interview, Mr. Henderson stated he had recently quit the
Mickey Cobra’s gang and was in school and working. (T. 2676-78). He repeatedly
denied any involvement in Gatlin’s death, stating he was in Chicago for a funeral at
the time of the murder. (T. 2691-94, 2715). Mr. Henderson stated that Roy Elliot,
his probation agent, and Richard Dillard, his counselor at Phyllis Wheatley, could
verify where he was. (T. 2695-2704). The jury was not informed that Mr. Elliot was
Mr. Henderson’s probation agent. (T. 2756). The videotaped interview was received
as Exhibit 64 but was not played for the jury. (T. 2705).

8

Herbert Williams
At trial, the state sought to admit testimony of Herbert Williams, also known
as Duke, describing an alleged conversation with Dante Evans, also known as
Dougie, about Gatlin’s murder. (T. 2118, 2122). According to the offer of proof,
Evans was involved in the murder of Gatlin, but was unavailable because he was
killed in Chicago. (T. 2120-2122). Evans had a conversation with Herbert Williams
on August 10, 1998. (T. 2121). The conversation took place in a car and then in a
hallway outside Williams’ apartment. (T. 2123). According to Williams, his cousin
was present for the conversation in the car. (T. 2123). In the car, Evans allegedly
told Williams that “We did it, T, we got away with it,” referring to Gatlin’s murder.
(T. 2122-23). At the apartment, Evans told Williams that he, Black, and DMC
killed Gatlin while on the way to a steakhouse. (T. 2123)
During discussions regarding the admissibility of Mr. Williams’ testimony of
what Evans allegedly told him, Mr. Henderson argued the statement was
inadmissible hearsay and deprived Mr. Henderson of his Sixth Amendment right to
confront witnesses against him since Evans was unavailable to be cross-examined.
(T. 2124, 2136). In arguing in favor of admissibility of the statement, the state
asserted that the reason Mr. Williams came forward was because Evans told him
that the Mickey Cobras intended to clean house to get rid of snitches and that
Williams’ good friend “Shorty” was on the list. (T. 2128). The state argued that the
statement was against Evans’ penal interest when he made it and that it had
sufficient indicators of reliability to be admissible under the confrontation clause

9

because it satisfied a hearsay exception. (T. 2126-2130). After extensive argument
on that issue, the trial court allowed in both Evans’ purported statement from the
car and from the hallway, holding that the statements were against Evans’ penal
interest and had sufficient indicators of reliability. (T. 2176-2182).
On the stand, Williams testified he had been a member of the Mickey Cobras.
Williams identified Mr. Henderson, Gatlin, and several other people as Mickey
Cobras. (T. 2195-2202). According to Williams, the Mickey Cobras sold drugs and
ripped people off to make money. (T. 2230).
Williams learned of Gatlin’s death from a man he and Gatlin had bought
marijuana from the day before Gatlin was killed. (T. 2203). Williams did not know
the man’s name. (T. 2235). Williams lived in New Hope with Rajab Jabbar, also
known as Shorty. (T. 2205). The police stopped by their apartment to ask questions
about Gatlin’s murder. (T. 2207). Williams knew the officers that stopped by,
Carlson and Lenzen, because they were investigating the murder of “Steezo.” (T.
2206). When the officers came by, they asked Williams and Shorty why they had
killed Gatlin. (T. 2207). Williams told the officers he had nothing to do with it. (T.
2207).
The day before the police stopped by, Williams allegedly had a conversation
with Evans while they were in a car on their way to purchase marijuana. (T. 2209).
Williams claimed that Evans said: “T, we got away with it.” (T. 2210). Evans then
stopped talking because Williams’ cousin, who was never identified, was in the back
of the car. (T. 2212). Their conversation then continued in the hallway of Williams’

10

apartment building. (T. 2213). Williams claims Evans told him: “[W]e got Wheaty.
It was like me, Black, DMC, QC, Rock, Lonney.” (T. 2214). Evans then explained
how they did it. They told Gatlin they were going to have a meeting with all the
gang members to talk about the murder of “Steezo.” (T. 2215-16). Evans told
Williams that Gatlin got into the car with them and they went to April Bell’s house.
(T. 2217). Evans said that DMC wanted to break Gatlin’s neck, but Evans didn’t
want him to because they would need to carry the body out. (T. 2218). According to
Evans, Mr. Henderson then took Gatlin to a weed house to buy marijuana while the
rest of them waited by a garage; when Mr. Henderson and Gatlin walked by, Mr.
Henderson pulled a gun and shot Gatlin. (T. 2219). Mr. Henderson then passed the
gun to Evans and Evans shot Gatlin five (5) times in the head. (T. 2220). Evans
told Williams it felt good to shoot Gatlin and that he could see Gatlin’s brains
“spilling out.” (T. 2220).
Evans was at Williams’ apartment the next day when police came by and
overheard them asking about the Gatlin murder. (T. 2222). After the police left,
Evans asked Williams to take him home to pack and then to the Greyhound station
where Evans caught a bus for Chicago. (T. 2222). Williams never saw Evans again.
According Williams, he reported the conversation he had with Evans to police
because Evans told him that Shorty was next on the kill list because Shorty had
given information to the police about the murder of Steezo. (T. 2227, 2240).
Williams feared that if they came for Shorty, they would get him too because he and
Shorty were always together, because they were best friends. (T. 2227, 2200-01).

11

After Williams’ motivation for coming forward with was challenged on crossexamination, Williams was asked on redirect, “Q: Now, the information that Shorty
gave to the police about Steezo’s death, did it have anything to do with Penny? A:
Yes. Q: It was that Penny killed Steezo, right? A: Right.” (T. 2251).
April Bell
In August 1998, April Bell was living at 3126 Knox Avenue North, a block
from Logan Avenue North, in Minneapolis, where Gatlin’s body was found. (T.
2259-60). She had been a member of the Mickey Cobra’s gang since she was fifteen
because her boyfriend was a member of the gang. (T. 2260). She identified other
members of the gang during her testimony, including Mr. Henderson and Gatlin.
(T. 2261-64).
According to Bell, on the day Gatlin was shot, she saw Darrell McKee, known
as DMC, and Dante Evans at her house. She was in the shower around 11:00 a.m.
when she heard DMC call her name. (T. 2267). DMC said they were going to kill
Gatlin and was looking for a bag of guns he had brought over a week prior. (T.
2268). Evans entered the room shortly after that. (T. 2269). Over Mr. Henderson’s
hearsay objection, Bell testified about the conversation that took place. DMC
explained the plan: Evans and “Black” would take Gatlin down the street, separate
from him, and then shoot him. (T. 2270). Bell was concerned they would kill Gatlin
in the house but DMC assured her they would take Gatlin to a steakhouse several
blocks away. (T. 2271). DMC and Evans left and returned two (2) to five (5)
minutes later with Mr. Henderson. (T. 2273). DMC changed into clothes he had

12

brought over to Bell’s house the previous week when he brought the guns over. (T.
2275). Evans changed his shirt; Mr. Henderson did not change his clothes. (T.
2276). Bell stated that Evans was wearing a red shirt, Mr. Henderson a white,
blue, and yellow hockey type shirt, and DMC was wearing a turquoise jersey. (T.
2352-53).
DMC asked Bell if she heard the shots, but she said she could not because it
was raining. (T. 2277). Evans and DMC made comments about killing Gatlin, but
not Mr. Henderson. (T. 2282). DMC then told Bell, who was nine (9) months
pregnant, they were giving her a ride to her doctor’s appointment that afternoon.
(T. 2278-81). They left Bell’s house about 11:45, went to a house to buy marijuana,
to a restaurant, and then to her doctor’s appointment. (T. 2278-81). Over a hearsay
objection, Bell was allowed to testify about statements purportedly made by the
men in car and at the doctor’s office. (T. 2282-2286). According to Bell, Evans said,
“Damn, Wheaty was shocked.” (T. 2285). DMC told her that Gatlin said, “I’m
already dead, T” and DMC responded, “Nigger, you ain’t dead, you just trying to
talk yourself out of being dead.” (T. 2285-86).
Bell dropped Evans and Mr. Henderson off at a house on the way back from
her doctor’s appointment, and she and DMC returned to her house. (T. 2292). DMC
told Bell to drive by the alley where they left Gatlin to see if anyone had found him
yet; as they drove by, they saw the homicide van. (T. 2291). After they returned to
Bell’s house, DMC took a nap for about half an hour and then had Bell drive him to
the grocery store and then to Donald Carter’s house. (T. 2295). While DMC and

13

Bell were at Carter’s house, Carter, DMC, and another man went into Carter’s room
so DMC could tell them something. (T. 2297). Bell then left and went home alone.
(T. 2298). Later, DMC came over and gave her a copy of the transcript of Gatlin’s
statement, telling her to put it with his bag of clothes. (T. 2298). The next day,
DMC picked up his clothes and said he was heading to Chicago. (T. 2300). DMC
left the pistol used in the shooting and the Uzis in Bell’s house in a bag. (T. 2301).
Bell moved the guns from her room to the basement. (T. 2302). Donald Carter
picked up the Uzis the following day, but left the pistol hidden under some clothes.
(T. 2303). Bell asked Mr. Henderson to get the pistol out of her house because she
did not know how to get in touch with DMC or Evans and because homicide
detectives has been at her house asking questions about the murder. (T. 2305). Mr.
Henderson said he would get the pistol later and told Bell to tell detectives that he
did not know anything. (T. 2305).
On cross-examination, Bell was clear that she did not see Mr. Henderson at
her house before the murder. (T. 2324). She admitted that in her prior statement,
she said nothing about Evans coming into her room or about DMC laying out the
plan to kill Gatlin on the way to the steakhouse. (T. 2328, 2331). On August 18,
police searched Bell’s home and arrested her for aiding and abetting or accomplice
to murder. (T. 2347). Prior to her arrest, Bell told police she knew nothing about
the murder. (T. 2343-44). She continued to deny any knowledge until police
threatened her with prison time and told her they would arrange a deal so she

14

would not go to prison if she cooperated. (T. 2348-49). The county attorney later
told her that if she continued to cooperate, she would not be charged. (T. 2350).
Melanie and Aicheria Bell
Bell’s mother and cousin also testified. According to Bell’s mother Melanie,
Mr. Henderson and two (2) other men stopped by Bell’s home when April was not
there. (T. 2379). Melanie told Mr. Henderson to get the gun out of the house and
they went to the basement, where Mr. Henderson found the gun under some old
clothes. (T. 2380). Melanie described the gun as silver with a black butt. (T. 2381).
Mr. Henderson allegedly put some socks on his hand, picked the gun up, put the clip
in, stuck the gun in his pants, and left. (T. 2382).
Aicheria Bell testified that April told her that Mr. Henderson, DMC, and
Evans were at her place with Gatlin before Gatlin got shot. (T. 2396). She also said
that she had a telephone conversation with Mr. Henderson where Mr. Henderson
told her that he had nothing to do with the murder and told her to tell April to tell
the police he did not have anything to do with it. (T. 2397). However, on cross,
Aicheria explained that Mr. Henderson was not telling her to tell the police he had
nothing to do with it, he was just explaining to her that he had nothing to do with
it; she did not believe it was an instruction to lie for him. (T. 2399-2400). Although
Mr. Henderson did tell her to tell April to tell the police he had nothing to do with
the murder, she did not mean it the way it was made to appear in the statement.
(T. 2404).

15

Paul Givens
Over Mr. Henderson’s objection, Paul Givens was allowed to testify about a
statement Mr. Henderson allegedly made to him about Gatlin’s murder while the
two (2) were in the Hennepin County Jail. (T. 2412). Mr. Henderson argued that
Givens lacked competency to testify because he had borderline intellectual
functioning and dementia and had been found incompetent to proceed in a pending
felony assault case. (T. 2412). The court questioned Givens and determined he
understood the oath and was capable of remembering his conversation with Mr.
Henderson, even though a month before trial, he could not recall Mr. Henderson’s
name. (T. 2422).
According to Givens, out of nowhere, Mr. Henderson started to talk to him
about Gatlin’s murder. (T. 2457-58). Mr. Henderson told him that he and another
guy were going to buy some marijuana when Mr. Henderson pushed the other guy
over and shot him in the arm, leg, and head. (T. 2446). Mr. Henderson also told
Givens about blood on clothes and clothes in a backpack. (T. 2457-58). Mr.
Henderson told Givens the guy he shot was Wheaty and Wheaty said “Don’t shoot
me no more, I’m already dead.” (T. 2447). After Wheaty was shot, they went to a
lady’s house and hid the gun in the basement. (T. 2447).
During his testimony, Mr. Givens claimed he told police about what he
learned because he wanted to be a good citizen. (T. 2459-60). Despite the fact he
had in fact received a deal on his own assault charge for his testimony, Givens
testified he was not receiving a deal from the county attorney’s office. (T. 2443-44,

16

2459-60, 2468). Mr. Givens also had to admit that he did not tell police about what
Mr. Henderson purportedly told him until after his own motion to reduce his bail
was denied, meaning he would not be able to get out of jail. (T. 2459).
Dedra Johnson
Dedra Johnson was an old girlfriend of Gatlin’s. She testified she found out
about Gatlin’s death on a Friday from Andrew Neal, who is also known as “T-Bone”
or “Bone.” (T. 2522). Mr. Henderson was present when Neal told Johnson Gatlin
was dead, but did not say anything because Neal and Mr. Henderson did not get
along. (T. 2523). After Neal left, Mr. Henderson said “I did it,” but then quickly
added that he was “playing,” and they both started to laugh. (T. 2524-25, 2622).
At the time, Mr. Henderson was living with Kerrye Ruberg, who lived next
door to Johnson. (T. 2780, 2528). Johnson talked to Mr. Henderson again the
following Sunday, when he came over after an argument with his ex-girlfriend,
Tameka Day. (T. 2530-34, 2707). Johnson initially testified that Mr. Henderson
told her he was going to “beat [Tameka’s] butt: because she would not let him see
his baby. (T. 2535). During her grand jury, testimony, Johnson testified that Mr.
Henderson told her that he would do to Tameka what he did to Gatlin. (T. 2537-38).
At trial, Johnson denied that Mr. Henderson ever said that to her. (T. 2537-38).
She explained that she was badgered by investigators who threatened to send her to
jail, so she told them the things they wanted to hear about Mr. Henderson so they
would let her go. (T. 2540, 2551, 2562). The prosecuting attorney was allowed to
present Johnson’s grand jury testimony as substantive evidence under Minn. R.

17

Evid. 801(d)(1). (T. 3257). In her prior grand jury testimony, Johnson testified that
Mr. Henderson told her that he was involved in the murder and that he and Gatlin
where getting weed when Mr. Henderson pushed Gatlin into an alley and shot hit.
(T. 2549).
On cross, Johnson explained that some of her grand jury testimony was false.
Specifically, the part where she said that Mr. Henderson said that he would do to
Tameka what he did to Gatlin and the part of Mr. Henderson admitting his
involvement in the murder were false. (T. 2572-73, 2624). Johnson stated she
learned about Mr. Henderson’s alleged involvement from investigators during her
interrogation and from Andrew Neal. (T. 2619). The reason she testified falsely
was because she was receiving constant calls and threats from the homicide
detectives on the case and because when she denied that she knew anything, she
was arrested on the day of her daughter’s birthday while running errands for the
party. (T. 2576-77). Johnson was told that she would be charged with being an
accomplice to murder and that she could go to prison for half as long as the killer.
(T. 2580, 2598-99). She sat in the jail for several hours that day before calling police
and telling them what they wanted to hear. (T. 2606-08). Johnson felt that was the
only way to get out for her daughter’s party. (T. 2652). After Johnson was released,
she continued to get regular calls from detectives insisting that she knew more and
an officer told her that since she had been taken in, if she saw Rock, she should
duck. (T. 2608-09, 2579). Johnson was afraid that she would be put back in jail if
she did not say what they wanted her to say. (T. 2609-10).

18

Johnson was clear at trial that the only part of her testimony that was true
was that on Friday night, Mr. Henderson told her that he did it, but then quickly
said he was joking, and that she did not take this statement seriously. (T. 2574,
2660). She was also clear that she made up everything Mr. Henderson was alleged
to have said on Sunday night. (T. 2618-19). Ms. Johnson also testified that she was
with Mr. Henderson when Mr. Henderson had his Cobra tattoo covered with a
panther. (T. 2627). This was prior to Gatlin’s murder. (T. 2627).
Richard Dillard
Richard Dillard was a counselor at Phyllis Wheatley in the summer of 1998.
(T. 3295). He reluctantly testified for the state that Mr. Henderson had told him he
was going to Chicago for family business. (T. 3298, 3302). After thinking about the
timing of the class Mr. Henderson was taking part in, Mr. Dillard felt the trip must
have taken place in August. (T. 3302).
MR. HENDERSON’S CASE
Tawan Barker
Mr. Henderson called Barker to impeach the testimony of April Bell. (T.
2841). Barker was arrested for assaulting Bell and while he was in jail, he spoke
with investigators. The assault was prompted by an argument he had with Bell
about her involvement in the Gatlin murder. Although Bell did not say who
committed the murder, she told him who was at her house the day of the murder.
(T. 2843-44). At trial, Barker testified that Bell told him it was “DMC, Black, and
some other dude’s name.” (T. 2843). In his prior statement to police, however,

19

Barker said that Bell told him that Q, D, and Mike were at her house with Wheaty
on the day of the murder, but did not mention Mr. Henderson’s name. (T. 2846,
2849). At trial, Barker testified that officer made a mistake, because Barker had
said more names than were written down. (T. 2846-47).
Andrew Neal
Neal testified that his nickname is Bone and he was a member of the Vice
Lords gang. He knew the Mickey Cobras, including Donald Carter and Arthur
Hurd, and he was friends with them. (T. 3022-25). He knew Mr. Henderson but did
not like him because they had fought in the past. (T. 3025). Neal testified he
received Gatlin’s statement from Hurd and gave it to Donald Carter. (T. 3027).
After he found out about Gatlin’s death, he went to Dedra Johnson’s house to talk to
her about it and saw Mr. Henderson on the front porch. (T. 3030-01). After the
police searched his house looking for the question and answer statement Hurd had
sent him, he decided to tell police what he knew about Gatlin’s murder. (T. 3032,
3034). He then brought Therian Johnson to talk to Sgt. Lenzen and told Lenzen he
might be able to convince Dedra Johnson to talk to them as well. (T. 3033, 3035).
Peter Batterman
Peter Batterman is Neal’s probation officer. He testified that in September
1996, Neal was on probation for two (2) counts of second-degree assault and firstdegree tampering with a witness. (T. 2990). He was still on probation for these
convictions in August 1998, with a stayed sentence of 72 months for the seconddegree assault assaults (36 months each, consecutive) and 18 months for witness

20

tampering. These sentences could have been executed if Neal violated his
probation. (T. 2992-93).
Sgt. Lenzen
Sgt. Lenzen was involved in the investigation of Gatlin’s murder. He
interviewed Tawan Barker after Barker called and asked for some consideration on
his assault charge in exchange for information on April Bell’s involvement in
Gatlin’s murder. (T. 3057). Barker told Lenzen that Bell told him that Gatlin had
been at her house on the day of the murder along with “DMC, QC, and somebody
named Mike.” (T. 3059). After Lenzen talked to Barker, police executed a search
warrant at Bell’s house and arrested her. (T. 3172).
Lenzen also testified regarding Neal’s participation in the investigation. On
August 12, 1998, Neal came by the office claiming to have information about Gatlin.
(T. 3060). Neal obtained the information from Therian Johnson, who heard from
Marvin Johnson, who learned from Dedra that Mr. Henderson killed Gatlin. (T.
3142). According to the fourth-hand information Neal provided, it was QC, DMC,
and Black with Gatlin when he was killed. (T. 3146). Neal also told police that he
learned that Gatlin, along with Black, QC, and DMC, were in a car and when Gatlin
got out of the car, Black ran around a garage and shot him. (T. 3143). After
hearing from Therian Johnson, Neal brought Therian to the police station to talk.
(T. 3144). Therian volunteered to wear a wire and talk to Dedra so police could
record their conversation about the murder. (T. 3069). In the meantime, Lenzen
told Neal not to talk to Dedra, but Neal talked to her anyway. (T. 3061). The next

21

day Neal and Therian went to Dedra’s and Dedra told Therian what Mr. Henderson
allegedly told her about the murder. (T. 3069). A portion of the tape, Exhibit 66,
was played for the jury but not transcribed. (T. 3066, 3076). The information from
the tape led to Dedra’s arrest for aiding an offender. (T. 3072, 3081).
Lenzen also interviewed Dedra Johnson. The first interview lasted an hour
and Johnson denied any knowledge. (T. 3088). Lenzen was trying to convince
Dedra this was a serious matter and told her that she could go to prison. (T. 3097).
Dedra was then put in a cell, where she then decided to talk with officers so that
she could go home. (T. 3103-04). Lenzen agreed that he told Dedra that if she did
not tell the truth, she would go back to jail. (T. 3125). The second interview lasted
several hours and it was during that interview that Dedra told Lenzen that Mr.
Henderson had said he did it, but then that it was a joke. (T. 3107). Dedra did not
believe that Mr. Henderson was capable of shooting Gatlin. (T. 3109).
Tylese Campbell
Tylese Campbell was living in North Minneapolis near where Gatlin’s body
was found. On August 7, 1998, she heard gunshots, looked out her window, and
noticed three (3) men running toward Lowry. (T. 2896). She spoke with police and
provided descriptions on August 7, 1998. (T. 2897). She described the man she saw
with a gun as being about 5’9”, with lengthy black hair and clean shaven. (T. 2902).
He wearing a plaid long sleeved shirt that looked too big for him that was checkered
and light blue in color with blue jeans. (T. 2902). He also had on a white shirt
under his checkered shirt and white tennis shoes. (T. 2902). As that man went by,

22

he said “Come on, come on.” (T. 2903). She described the second man as wearing a
white t-shirt with regular blue jeans. (T. 2905). He was about 18 years old, 5’5” or
5’6”, and weighed about 140 to 150 pounds. (T. 2905). He had black hair, with no
hat, and was clean shaven. (T. 2905). He also wore a silver medium chain. (T.
2905). Ms. Campbell gave the following description of the third man. He had on a
red hockey jersey with a white logo in the middle of it and a white stripe on the
bottom. (T. 2906). He was about 18 years old, 5’4” or 5’5”, and around 150 pounds.
(T. 2906). He had short black hair, not facial hair, and wore a silver watch on his
left hand. (T. 2906).
Later that same day, Campbell was taken to the scene of a traffic stop where
she indicated that one of the people from the car looked like a person she saw
running through the alleyway. (T. 2908). Mr. Henderson attempted to call officers
involved in identification. (T. 2939-2962). The district court did not allow the
questions. However, it was established outside the presence of the jury that
Campbell identified an individual named Paul Harvey as one of the males she saw
running through the alley. (T. 2956).
Michael Barhorst
Michael Barhorst lived near where Gatlin’s body was found. On August 7 th,
he was drinking beer in his garage, waiting for the rain to stop so that he could go
fishing. (T. 2930). He heard what sounded like firecrackers: six pops, a pause, and
then several more pops. (T. 2920-21). He went to the window and saw two (2) black
men walking quickly in the alley toward Lowry. (T. 2922). One of them was

23

wearing a red and white tank shirt and the other was wearing a dark blue or black
short-sleeved shirt. (T. 2922-27). The one in red was trying to pull his shirt out and
over something. (T. 2927). He never saw the men from the front. (T. 2923-24).
Theresa Doss
Mr. Henderson introduced evidence that he had altered his tattoo of a cobra
and that people typically do that when they leave a gang. (T. 2784). Theresa Doss
testified she worked as a recruiter at Summit Academy, which provided job skills
training. (T. 2963). They have a program for at-risk students to help them out of
gangs. (T. 2698). She worked with Mr. Henderson from April to August 1998 and
met with him more than six (6) times. (T. 2967). According to their conversations,
Mr. Henderson was looking for a job at night so he could go to school in the
morning. (T. 2965).
NEWLY DISCOVERED EVIDENCE
Rajab “Shorty” Jabbar
On or around May 29, 2014, Mr. Henderson saw an individual he knew as
“Shorty” at the Stillwater Correctional Facility. (Doc. Id. # 28 - Exhibit A to
Memorandum of Law in Support of Petition – Jabbar Affidavit ¶ 11). At that time,
Mr. Henderson asked Shorty if he (Shorty) had told police that Penny killed Steezo,
like Williams had testified. Shorty stated that he had not ever given police such
information. (Id.)
Shorty described that on July 7, 1998, he was at a halfway house on Portland
Avenue when Sergeants Lenzen and Carlson came to talk to him about the death of

24

a man named Steezo. Shorty went on to state what he told police about the day
Steezo was shot. Shorty was with Steezo. (Id. ¶ 3). They stopped by where Steezo
was staying so that Steezo could grab some stuff. (Id.) After a little bit, Steezo
came running out of the house and ran past the car, yelling for Shorty to get out of
the car. (Id.) As Shorty was getting out, a person came out of the house and started
to walk south. (Id.) Shorty was asked by police if he would recognize the man if he
saw him again, and he said “yes.” (Id.) The officers then asked Shorty to show
them where he last saw Steezo, and after Shorty took the officers to the area, they
found Steezo’s body. (Id. ¶ 4).
The officers then asked Shorty if he knew Steezo’s girlfriend. (Id. ¶ 5).
Shorty said he did and took the officers to Williams’ house, because he believed she
might be there. (Id.) Once there, the officers told Tyronda, Steezo’s girlfriend, that
Steezo was dead. (Id.) Tyronda ran from the room. (Id.) The officers then asked
Williams if he knew anyone that might have wanted to hurt Steezo. (Id.) Williams
stated that Steezo had an altercation with someone named Penny. (Id.) Tyronda
then returned to the apartment and when she was asked if she knew of anyone who
would want to hurt Steezo, she said that Steezo had problems with Penny. (Id.)
Williams and Tyronda then told officers that Shorty knew that it was Penny who
killed Steezo. (Id. ¶ 6). Officers then spoke with Williams off on his own and then
took Shorty downtown. (Id.) Once downtown, Shorty told officers that he did not
know the person who he saw come out of the house, but would recognize the person
if he saw him again. (Id.)

25

Shorty also provided the following information about what happened after
Gatlin was killed. Shortly after Gatlin was killed, Shorty and Williams saw Lenzen
and Carlson outside Williams’ apartment. (Id. ¶ 7). When the officers approached,
they asked Shorty and Williams why they had killed Gatlin. (Id.) Shorty said he
had nothing to do with it, and after determining he was not under arrest, walked
away. (Id.)
The next day, Shorty was with Williams at his apartment when Lenzen and
Carlson came back and asked them to go downtown. (Id. ¶ 8). Downtown, Shorty
and Williams were put in different rooms. (Id.) Shorty continued to tell officers he
knew nothing about Gatlin’s death. (Id.) After some time, the officers asked Shorty
to go talk to Williams. (Id.) When Shorty came in the room, Williams was crying
and told Shorty that he was not “going down for this shit.” (Id.) Shorty told
Williams that if he wasn’t involved, he would not get in trouble and then asked
investigators if he could leave. (Id.) He was told he could, so he left. (Id.)
The following day, Shorty was outside of Williams’ apartment building when
Williams arrived in a car with Evans. (Id. ¶ 9). Williams asked Shorty if he wanted
to go with them to get some weed, so Shorty did. (Id.) During that car ride,
Williams asked Evans if he could tell Shorty something. (Id.) When Evans said he
could, Williams told Shorty that they “got away with smoking that nigga Wheaty.”
(Id.) Williams then went on to state that it was him, DMC, and Evans, who killed
Gatlin. (Id.) They had seen Gatlin on the street and picked him up to get some
weed with them. (Id.) Gatlin looked like he wanted to run, but got in the car. (Id.)

26

They then went to a house, where DMC, Gatlin, and Evans went inside. (Id.) After
a while they came out and back to the car, where DMC handed Williams a gun.
(Id.) The men then went into an alleyway where Williams pulled the gun and shot
Gatlin three (3) or four (4) times before the gun jammed. (Id.) Gatlin then said
something about already being dead and laid on the ground. (Id.) Evans then took
the gun from Williams and shot Gatlin in the head. (Id.)
The following morning, Shorty was in Williams’ apartment, along with
Evans, when Lenzen and Carlson came back. (Id. ¶ 10). The officers asked the men
if they knew anyone who lived in the area where Gatlin was killed. (Id.) Shorty
mentioned that April lived in the area and the officers left. (Id.) Both Williams and
Evans were very nervous and unhappy that Shorty said April lived in the area.
(Id.) Evans then told Williams he needed a ride to the bus station, so Williams gave
him a ride. (Id.) When Williams returned to his apartment, he told Shorty that
Shorty needed to leave so Williams and his wife could do some things. (Id.)
Willie Scott
On or around December 31, 2015, Mr. Henderson also obtained a statement
from an individual named Willie Scott. Mr. Scott provided the following
information. While at the Ramsey County Jail, Scott saw a newspaper article,
claiming that a suspect in a shooting was once a police informant. The article had a
photograph of a friend of his, Andrew Neal. (Doc. Id. # 28 - Exhibit 2 to
Memorandum of Law in Support of Petition - Scott Affidavit). While at the St.
Cloud Correctional Facility, Scott ran into Mr. Neal and asked him if he was an

27

informant in the case against Mr. Henderson like the article said. (Id.) Mr. Neal
appeared upset and said he would tell Scott about it later. (Id.)
When they talked again later, Mr. Scott asked if Mr. Henderson had actually
confessed to killing Gatlin. (Id.) Neal said Mr. Henderson had not. (Id.) Scott also
asked Mr. Neal if he got someone to wear a wire to get information about Gatlin’s
murder. (Id.) Neal said he had. (Id.) Neal went onto explain that he told police it
was Mr. Henderson who killed Gatlin, but the police wanted a confession. (Id.)
Neal knew he couldn’t get a confession from Mr. Henderson, so he asked a woman
named Dedra to say that Mr. Henderson pushed Gatlin into an alley and then shot
him. (Id.) Neal said that he told Dedra that he needed her to tell this information
to her cousin Therian. (Id.) When Therian came to Dedra’s house, she said what
Neal told her too. (Id.) When Scott asked Neal why he would do this, Neal said
that he never liked Mr. Henderson. (Id.)
2016 Postconviction
Based on this evidence, Mr. Henderson filed a petition for postconviction relief
making claims of a Brady violation, ineffective assistance of trial counsel, and a claim
for a new trial under the Rainer standard based on the newly discovered evidence
related to Jabbar.

(Doc. Id. #s 1, 2 – Petition for Postconviction Relief and

Memorandum of Law in Support of Petition). Mr. Henderson also made a claim for a
new trial under the Larrison test based on the newly discovered evidence related to
Scott. (Id.) The district court denied these claims, holding that Mr. Henderson could
not satisfy the newly discovered evidence exception standard of Minn. Stat. § 590.01,

28

Subd.4(b)(2). (Appendix B - P. 9-18). The district court also held that Mr. Henderson
was not entitled to an evidentiary hearing because the evidence he presented, even if
true, would not entitle him relief for his Brady and ineffective assistance of counsel
claims because those claims were supported by mere argumentative assertions
without factual support. (Appendix B - P. 15-18).
The Minnesota Supreme Court affirmed the denial. However, it first held that
the district court abused its discretion by weighing the evidence and determining its
credibility without an evidentiary hearing, but ultimately held the evidence, even if
true, did not show Mr. Henderson’s innocence, and therefore it was proper to dismiss
his petition as untimely. Henderson v. State, A17-0124, (Minn. Jan. 31, 2018).
REASONS FOR GRANTING THIS PETITION
I.
The Eighth Circuit applied a heightened standard in denying a COA on Mr.
Henderson’s claims.
Mr. Henderson was required to secure a certificate of appealability as a
prerequisite to his appeal of the District Court’s dismissal of his habeas petition. See
28 U.S.C. § 2253(c)(1)(B). Under AEDPA, an application for a COA must demonstrate
“a substantial showing of the denial of a constitutional right.” Id. at (b)(2). A COA
must issue if either: (1) “jurists of reason could disagree with the district court’s
resolution of his constitutional claims” or (2) “that jurists could conclude the issues
presented are adequate to deserve encouragement to proceed further.” Id. Where
the petition has been denied for some procedural issue and the district court did not
reach the merits in the petition, the COA should issue if the petitioner shows a valid
claim of denial of constitutional rights and that jurists of reason would find it

29

debatable whether the district court was correct in its procedural decision. Slack v.

McDaniel, 529 U.S. 473, 484-85 (2000). A petitioner need not show “that the appeal
will succeed.” Miller-El v. Cockrell, 537 U.S. 322, 337 (2003). This Court has stated
that, “a claim can be debatable even though every jurist of reason might agree, after
the COA has been granted and the case has received full consideration, that
petitioner will not prevail.” Id. at 338.
After review of Mr. Henderson’s claims, the Eighth Circuit concluded that no
reasonable jurists would disagree with the district court’s denial of Mr. Henderson’s
petition. This included the district court’s conclusion that Mr. Henderson’s petition,
based on newly discovered evidence showing serious violations of his constitutional
rights through the presentation of false testimony, were time barred and procedurally
barred.
Mr. Henderson has identified cases from numerous Circuits which show that,
under the factual circumstances presented, with new evidence, reasonable jurists can
disagree with the conclusion that his claims were time barred for failure to exercise
due diligence.
In Starns v. Andrews, 524 F.3d 612 (5th. Cir., 2008), that court held that due
diligence did not require that the defendant learn of exculpatory grand jury testimony
where the state downplayed the exculpatory nature of the grand jury testimony and
where defendant’s counsel in a wrongful death suit learned of the exculpatory
evidence in a deposition years after the conviction became final, even though criminal
defense counsel had been given the witness’ address prior to trial.

30

In Moore v. Knight, 368 F.3d 936 (7th Cir. 2004), that Court held that the
habeas petition was timely as filed within one year of when petitioner obtained
investigative report and affidavits showing improper judicial contact with the jury.

Id.at 938-40. This was the case, even though the judge had reported the contact with
the jury, off the record, prior to sentencing, because the judge presented the contact
as benign. Id. at 439. Review of the timing in the case is helpful to understanding
why reasonable jurists can disagree with the conclusion that Mr. Henderson’s claims
were untimely. Moore’s conviction became final on March 28, 1997. Id. at 938. In
early 1997 Moore first learned through a friend, who had overheard conversations,
that the judge’s contact with the jury was more than the judge had reported. Id. At
that same time, Moore asked his friend to investigate this further. Id. On May 18,
1998, the friend provided an investigative report and two (2) affidavits from jurors
which indicated that they felt the judge’s communications contained commentary on
the credibility of witnesses. Id. Petitioner filed for postconviction relief in state court
on January 5, 1998 and then “after following proper procedural routes appeared
before United States District Court for Northern District of Indiana” seeking habeas
relief. Id. at 939. That Court held that lag of time between initially learning of
possible improper conduct in early 1997 and receiving affidavits in May 1998 did not
show lack of due diligence because petitioner was in prison. Id. at 940. It also held
that May 18, 1998 was the proper date for the factual predicate since that was the
date that petitioner obtained actionable information to make his claim. Id. at 940.

31

Mr. Henderson has also identified the following cases which support his claims.

See Wilson v. Beard, 426 F.3d 653 (3rd Cir. 2005) (The defendant’s conviction became
final in 1985. Id. at 655. On March 31, 1997, after the prosecutor from Wilson’s trial
decided to run for district attorney, a video tape of the prosecutor explaining that it
was his preference to strike black jurors, and explaining how he did it in a way to get
past Batson analysis, was released. Id. at 657. Wilson learned of the existence of the
tape on or around April 6, 1997 from his prior attorney. Id. at 660. Wilson then filed
a petition for relief in state court based upon the video on June 2, 1997. Id. at 659.
That petition was pending until March 22, 2001. Id. Wilson then filed for habeas
relief on January 23, 2002. Id. If Wilson knew or should have known of the video
between April 1 and April 5, 1997, his habeas petition would be untimely. The Third
Circuit Court of Appeals held that Wilson did not fail to exercise due diligence in
failing to learn of the tape until April 6, 1997, when he was told about it by counsel,
because due diligence did not require him to continuously monitor the news on the
remote possibility of learning facts helpful to his case.

Id. at 661-62); See also

Easterwood v. Champion, 213 F.3d 1321 (10th Cir. 2000) (Here the defendant was
tried and convicted of first-degree murder. He defended using an insanity defense.

Id. at 1322. His appeal was denied in 1982. Id. On April 10, 1997, the Tenth Circuit
Court of Appeals issued an opinion in a separate case in which it held that the medical
expert the state had presented in Easterwood’s case to establish that he was sane at
the time of the crimes was suffering from undiagnosed bipolar disorder in 1979 that
was severe enough to impair and distort his diagnostic judgment.

32

Id. at 1323.

Easterwood discovered the case in the prison law library on August 12, 1998. Id. He
filed a petition seeking to file a subsequent habeas petition on October 5, 1998. Id.
The district court denied the petition as untimely because October 5, 1998 was more
than a year after the April 10, 1997 opinion release. Id. The Tenth Circuit Court of
Appeals reversed, first stating that for a prisoner, a case does not become discoverable
through the exercise of due diligence until it becomes available in the prison law
library. Id. at 1323. That Court went on to state, taking into account the periods
where time was tolled because of petitions filed in state court and in seeking
permission to file a second habeas petition, the petition was timely. Id. at 1323-24);

See also Wims v. U.S., 225 F.3d 186 (2nd Cir. 2000) (Petition held to be timely even
though claim is based on counsel failing to file for a direct appeal, which happened on
September 22, 1997, and petition was not filed until after petitioner learned no appeal
had been filed by writing to the court on January 18, 1999).
These cases show that it is unreasonable to hold that a claim is time barred
under these circumstances. Wilson and Moore are particularly instructive because
they involved actions that took place outside the petitioner’s presence and knowledge
and show that, where the petitioner is in prison due diligence does not require that
he gain knowledge of events that took place outside of his presence until he is actually
informed of them. Because the reasonable jurists in those cases, on similar facts,
reached a different conclusion, a COA should have issued here.
The phrase “susceptible to debate among jurists of reason” is a term of art that
gained currency in this Court’s retroactivity analysis following Teague v. Lane, 489

33

U.S. 288 (1989). This Court has held that disagreement between circuit judges on
the application of Supreme Court precedent to a particular set of facts is per se
evidence that an issue “was susceptible to debate among reasonable minds.” See

Butler v. McKellar, 494 U.S. 407, 494 (1990). This Court has reached the same result
where jurists of a state supreme court have similar disagreement as to application of
precedent to a certain set of facts. See Sawyer v. Smith, 427 U.S. 227, 236 (1990)
(holding that the rule announced in Caldwell v. Mississippi was susceptible to debate
on the basis of the Mississippi Supreme Court decision in Caldwell v. State).
Had the above standard been applied, the Eighth Circuit would have been
required to grant Mr. Henderson a COA given that reasonable jurists can and do
disagree regarding the timeliness of the claims. Certiorari should be granted in this
case to make clear that, where a habeas petition can show that a reasonable jurist,
on similar facts, has decided a similar issue in the manner advocated by the petitioner
in his case, the petitioner has made a sufficient showing that is appeal involves
questions susceptible to debate and that a COA should therefore issue.
CONCLUSION
For the reasons stated above, Mr. Henderson respectfully requests that this
Court grant this petition for certiorari.
Respectfully submitted.

34

Dated: 7/13/2020

Longsdorf Law Firm, P.L.C.

s/ Zachary A. Longsdorf
___________________________
Zachary A. Longsdorf (ID #0390021)
Counsel of Record for Petitioner
5854 Blackshire Path, Suite 3
Inver Grove Heights, MN 55076
Telephone: (651) 788-0876
Fax: (651) 223-5790
zach@longsdorfLaw.com

35

